Department of Health and Human Services

           OFFICE OF
      INSPECTOR GENERAL




        Clinical Performance Measures
             for Dialysis Facilities

 Lessons Learned by the Major Dialysis Corporations
           and Implications for Medicare
              Supplemental Report # 2




                        JANET REHNQUIST
                      INSPECTOR GENERAL

                           JANUARY 2002
                          OEI-01-99-00054
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston office prepared this report under the direction of Mark R. Yessian Ph.D., Regional
Inspector General and Joyce M. Greenleaf, M.B.A., Assistant Regional Inspector General.
Principal OEI staff included:

BOSTON                                               HEADQUARTERS

Aimee K. Golbitz, Lead Analyst                       Bambi D. Straw, Program Specialist
Norman J. Han, Program Analyst

     To obtain copies of this report, please call the Boston Regional Office at 617-565-1050.
         Reports are also available on the World Wide Web at our home page address:

                                      http://oig.hhs.gov/oei/
                         EXECUTIVE                            SUMMARY
PURPOSE

          To present lessons learned by the five largest dialysis corporations in using clinical
          performance measures to hold facilities accountable for the quality of care and to address
          the implications they have for the Centers for Medicare & Medicaid Services, formerly the
          Health Care Financing Administration.

BACKGROUND

          In our June 2000 report, External Quality Review of Dialysis: A Call for Greater
          Accountability, we urged the Centers for Medicare & Medicaid Services (CMS) to use
          facility-specific clinical performance measures as a key part of its oversight of dialysis
          facilities. Clinical performance measures are quantitative indicators, typically expressed as
          a percentage, that reflect the quality of care patients received. CMS concurred with the
          directions we suggested and presented a detailed action plan to strengthen its use of
          clinical performance measures. Since then it has been active in carrying out this plan.

          In this follow-up inquiry, we examine the practices of the five largest dialysis corporations
          in using clinical performance measures to hold their own facilities accountable for the
          quality of care. We regard such an inquiry as important because: (1) these corporations
          account for about 70 percent of all dialysis patients in the United States, the vast majority
          of whom are Medicare beneficiaries, and represent over 2,000 facilities, (2) they have a
          substantial body of experience in using performance measures, and (3) they have gained
          know-how that can be helpful to CMS and others.

          This report is the second of two supplemental reports focusing on clinical performance
          measures for dialysis facilities. The main report is entitled, Building on the Experiences of
          the Dialysis Corporations. The first supplemental report, Practices of the Major Dialysis
          Corporations, describes the processes the corporations have to collect and use
          performance measures. All three reports are based on our review of corporate documents,
          interviews with corporate medical directors, and visits to a number of the corporations’
          dialysis facilities. We sought to describe their processes and we did not evaluate the
          overall effectiveness of their systems. We did not audit or validate the performance data
          the corporations collect from their facilities. The corporations voluntarily participated in
          this review and the data presented was self-reported by the corporations.

LESSONS LEARNED BY THE CORPORATIONS

          In our first report in this series, we described how the corporations collect, review,
          analyze, and disseminate facility-specific clinical performance measures. We found that
          each collects over a dozen measures and generates timely, facility-specific performance


Dialysis: Lessons Learned and Implications for Medicare   i                            OEI-01-99-00054
          reports. In this report, we present the lessons that the five major dialysis corporations told
          us that they have learned over the years in using these measures. The first two lessons
          address the foundation for accountability that must be established in order for the
          measures to have impact. The remaining lessons address the particulars of establishing
          and using the measures.

Establishing a Foundation for Accountability

        T Look to medical directors to exert sustained leadership.

        T Secure the commitment of attending physicians.

Implementing Clinical Performance Measures

        T Collect a broad set of measures.

        T Revisit the relevance of the measures regularly.

        T Establish minimum performance standards.

        T Develop performance goals.

        T Apply strict definitions to performance measures.

        T Check the accuracy of performance data regularly.

        T Minimize the data reporting burden.

        T Present performance data in ways that facilitate comparative assessment.

        T Provide timely feedback of performance data to facilities.

        T Stress quality improvement projects at the facility level.

        T	 Use performance data as a guide to possible performance problems, not as definitive
           indicators.

        T Intervene with facilities having performance problems in ways likely to motivate change.

RECOMMENDATIONS

          CMS has played an important leadership role in developing national clinical performance
          measures to assess the quality of care of dialysis patients and, like the corporations, has




Dialysis: Lessons Learned and Implications for Medicare   ii                           OEI-01-99-00054
          its own system in place to collect facility-specific performance measures. The major

          dialysis corporations also have been proceeding on a similar track and have gained

          considerable know-how in how to make the most effective use of facility-specific

          performance measures. The lessons that the corporations have learned in collecting and

          using clinical performance measures reinforce the directions that CMS is taking to further

          develop its system to collect and use facility-specific performance measures.


          Below we draw on the lessons the corporations have learned that we conclude have

          implications for CMS. Our intent is to help CMS further tap into the potential of

          performance measures as a means of improving health care outcomes for dialysis patients.


          Conditions for Coverage. CMS should revise the Conditions for Coverage, Medicare’s

          regulations for dialysis facilities, so that they:


          <     Require facility medical directors to exert leadership in quality improvement.

          <     Require dialysis facilities to conduct their own quality improvement projects.


          Attending Physicians. CMS should examine ways to foster the commitment of attending

          physicians to performance measures. 


          <     Conduct educational forums that address the value of measurements to patient care. 

          <     Examine the possibility of physician-specific report cards.

          <     Focus greater attention on the responsibilities of attending physicians.


          Intervention Strategies. CMS, with its oversight agents, the End-Stage Renal Disease

          Networks and the State Survey Agencies, should develop more effective intervention

          strategies for facilities experiencing performance problems. For this to happen, CMS

          should:


          <     Foster greater collaboration between the Networks and the States that incorporates
                the respective strengths of the two.
          <     Address the confidentiality and liability concerns that impede such integrated efforts.

          Dialysis Corporations. CMS should work with the corporations to share experiences
          and minimize burdens on dialysis facilities. At the core, the two have similar concerns
          about improving care. More sharing of experiences could be helpful to both parties, and,
          most importantly, to patients.

COMMENTS

          We received written comments on the draft report from the CMS, the Forum of End-
          Stage Renal Disease Networks, Renal Physicians Association, National Renal
          Administrators Association, and the five corporate dialysis providers that were the focus




Dialysis: Lessons Learned and Implications for Medicare   iii                           OEI-01-99-00054
          of our inquiry. Their comments were strongly supportive of the lessons we presented and
          of the thrust of the recommendations we made to CMS. We include the full text of the
          comments in appendix C. On the basis of the comments, we made a number of
          clarifications and technical changes. Among the respondents, our recommendations
          addressing medical director leadership and the commitment of attending physicians
          generated the most attention. Below, we briefly summarize the comments and our
          responses to them.

          Medical Director Leadership. CMS supported our recommendation that the Medicare
          Conditions for Coverage be revised to require medical directors to exert leadership in
          quality improvement. The dialysis corporations and the other commenters also
          underscored the importance of such leadership, but to varying degrees raised concerns
          about how it might be defined in the Medicare Conditions. They urged that leadership
          expectations be in accord with the real world in dialysis facilities. Their comments
          reinforce the importance of CMS clearly establishing the medical director’s authority and
          responsibility to provide leadership if it expects performance measures to be instrumental
          in improving care in dialysis facilities. At the same time, the comments suggest the value
          of collaboration between the corporations and CMS in further defining the leadership role
          of medical directors.

          CMS and other respondents supported our recommendation that medical directors be
          given authority to conduct or initiate peer review of attending physicians. But they were
          clearly wary of our recommendation that when patients are put at risk because of
          substandard medical care, the medical director should report the physician to an
          authoritative body, such as the facility’s governing board, the End-Stage Renal Disease
          Network, or the State medical board. We suggest that this is a vital patient protection
          responsibility that must be part of the purview of the medical director and that CMS
          should address it as part of its efforts to foster quality dialysis care.

          Securing the Commitment of Attending Physicians to Performance Measures. This
          is a vital matter having a significant bearing on the successful use of performance
          measures. CMS expressed its readiness to consider the measures we called for. Other
          respondents were supportive of convening educational forums. But some raised concerns
          with the use of physician-specific reports (which are already being used by at least one
          End-Stage Renal Disease Network and by two dialysis corporations) and with the
          establishment of more explicit Federal standards or requirements concerning the
          performance of attending physicians. We recognize that these are difficult issues, but
          suggest that they warrant careful examination as means of more fully engaging attending
          physicians in quality improvement efforts.




Dialysis: Lessons Learned and Implications for Medicare   iv                         OEI-01-99-00054
                         TABLE                        OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


LESSONS LEARNED BY THE CORPORATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Look to Medical Directors to Exert Sustained Leadership . . . . . . . . . . . . . . . . . . . . . . . 6

          Secure the Commitment of Attending Physicians . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          Collect a Broad Set of Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          Revisit the Relevance of the Measures Regularly . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          Establish Minimum Performance Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          Develop Performance Goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          Apply Strict Definitions to Performance Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          Check the Accuracy of Performance Data Regularly . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          Minimize the Data Reporting Burden . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          Present Performance Data in Ways That Facilitate Comparative Assessment . . . . . . . . 10

          Provide Timely Feedback of Performance Data to Dialysis Facilities . . . . . . . . . . . . . . . 10

          Stress Quality Improvement Projects at the Facility Level . . . . . . . . . . . . . . . . . . . . . . . 10

          Use Performance Data as a Guide . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          Intervene with Facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


RECOMMENDATIONS FOR CMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Revise the Conditions for Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         13

          Foster the Commitment of Attending Physicians . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                14

          Develop More Effective Intervention Strategies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               15

          Work with the Dialysis Corporations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          16


COMMENTS ON THE DRAFT REPORTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


          Appendix A: Glossary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   21

          Appendix B: Federal Sources of Performance Measures . . . . . . . . . . . . . . . . . . . . . . . .                      22

          Appendix C: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     25

          Appendix D: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   54





Dialysis: Lessons Learned and Implications for Medicare           v                                             OEI-01-99-00054
                                      INTRODUCTION

PURPOSE

         To present lessons learned by the five largest dialysis corporations in using clinical
         performance measures to hold facilities accountable for the quality of care and to address
         the implications they have for the Centers for Medicare & Medicaid Services, formerly the
         Health Care Financing Administration.

BACKGROUND

         In 1972, Medicare began covering individuals with end-stage renal disease, or permanent
         kidney failure, making it the only entitlement criteria for Medicare based solely on a
         disease category. Patients receiving hemodialysis, the most common method of treatment,
         typically receive treatment in outpatient dialysis facilities three times a week.1 About
         3,500 dialysis facilities provide ongoing, life-sustaining dialysis treatments to about
         240,000 patients around the country.2

Our Prior Inquiry

         In June 2000 we released a report examining the Centers for Medicare & Medicaid
         Services’ (CMS), formerly the Health Care Financing Administration, oversight of dialysis
         facilities as carried out by the End-Stage Renal Disease Networks and the State Survey
         Agencies (External Quality Review of Dialysis: A Call for Greater Accountability, OEI-
         01-99-00050).3,4 In that report we gave attention to the fact that performance measures
         can be an important tool to encourage facilities to improve the quality of care and to help
         ensure that they meet minimum standards. But we also found that CMS rarely uses such
         measures to hold individual facilities accountable.

         In our recommendations, we urged CMS to collect and use facility-specific performance
         data as a key element of its external review system. Clinical performance measures are
         quantitative indicators, typically expressed as a percentage, that reflect the quality of care
         patients received. For example, the percentage of patients at a facility that achieved an
         adequate dose of dialysis as measured by a urea reduction ratio of $65 percent, is an
         indicator. (See appendix A for a glossary of terms.)

         We urged CMS to identify a new core set of performance measures to collect regularly on
         all patients from all facilities. We recommended that it make these measures available to:

               < facilities to support internal quality improvement activities,
               < Networks to support regional quality improvement activities and to identify
                 outliers for further review,


Dialysis: Lessons Learned and Implications for Medicare   1                             OEI-01-99-00054
               < State survey agencies to help guide and inform the Medicare survey process, and
               < the public to foster public accountability.

CMS’ Actions

         CMS concurred with the directions we set forth and presented a detailed action plan that
         incorporated numerous efforts it had underway and would be initiating. It is drafting new
         Conditions for Coverage, Medicare regulations, for dialysis facilities, which it expects to
         release in draft in the coming months. In doing so, it plans to consider our
         recommendations to strengthen the role of the medical director, to require facilities to
         electronically report on a core set of performance measures, and to require facilities to
         conduct their own quality improvement activities.

         CMS has also committed to strengthening its existing efforts to collect facility-specific
         data on all Medicare beneficiaries as soon as it is able to put into place its new information
         system, Vital Information System for Improvement of Outcomes in Nephrology.5 This
         new information system will allow facilities to electronically report data directly to CMS.
         The system will also help ensure accurate reporting through computer software that will
         contain automatic data edits that will notify the user when data that is illogical is entered.
         CMS has already implemented the Standard Information Management System for the End-
         Stage Renal Disease Networks, which connects all the Networks together and directly
         with CMS. CMS is also revising three administrative data forms that it collects from
         facilities that contain data used to calculate performance measures. Eventually these
         forms will be submitted to CMS electronically by the facilities.

         Since 1995, CMS, via the End-Stage Renal Disease Networks, has distributed Unit-
         Specific Reports that provide comparative, facility-specific data, which includes mortality
         and hospitalization rates. Facility-specific urea reduction ratio and hematocrit levels were
         added to the reports after 1998. In January 2001, CMS publicly released comparative
         facility-specific reports that contained three performance measures: urea reduction ratio,
         hematocrit, and mortality. The reports are available on the Internet.6 In July 2001, CMS
         distributed to State survey agencies, facility-specific reports that also contain key
         performance measures. State survey agencies use these reports to assist in selecting
         facilities for review and to focus Medicare certification surveys. Currently the majority of
         the data in these reports comes from Medicare billing and administrative data and the data
         are over 2 years old. As the CMS implements its Vital Information System for
         Improvement of Outcomes in Nephrology it is expected that the data for these reports will
         be more timely (see appendix B for more detailed information about Federal sources of
         performance data).

         Finally, CMS revised its process to review and approve each of the Networks annual
         quality improvement projects. The new process is intended to reduce variation in the
         quality of projects and help Networks design more sophisticated projects. The new



Dialysis: Lessons Learned and Implications for Medicare   2                           OEI-01-99-00054
         process also gives Networks more guidance on what topic areas they should focus on for
         their quality improvement projects.

Dialysis Corporations Use of Clinical Performance Measures

         In this follow-up inquiry we focus on the experiences of large, corporate dialysis providers
         in using clinical performance measures as a way of holding their own facilities accountable
         for the quality of care provided. This is a significant domain of external quality oversight
         that we did not address in our June 2000 report and that has been largely ignored in the
         public sphere.

         We regard it as important to learn more about the experiences of these providers for three
         major reasons. First, as the dialysis industry has consolidated in recent years, these
         corporations have become a major force in the dialysis field. The five largest
         corporations, which we focus on in this report, now account for about 70 percent of all
         dialysis patients in the United States, the vast majority of whom are Medicare
         beneficiaries.7 They account for over 2,000 of the nation’s 3,500 dialysis facilities.8
         Second, they have a substantial body of experience in using performance measures to
         monitor the quality of care at their own facilities. And, third, they have gained know-how
         that may be useful to Federal efforts.

Methodology

         We limited our inquiry to the five largest providers: Fresenius Medical Care North
         America, Gambro Healthcare, Davita (formerly Total Renal Care), Renal Care Group, and
         Dialysis Clinic, Inc. In selecting the top five, we do not seek to imply that they are
         necessarily the best in using performance measures, nor to suggest that other corporations
         or independently owned facilities are not also experienced in using such measures. Each
         of the five corporations participated in our study voluntarily and made available to us
         information concerning its practices. The information we present is current as of June
         2001. The information contained in this report was self-reported by the dialysis
         corporations.

         At the outset, we considered including in our review measures that relate to clinical
         performance, patient satisfaction, and adverse events. Each is important to national policy
         and in each case the corporations have relevant experience. However, for this inquiry, we
         decided to limit our focus to clinical performance measures in order to allow for greater
         detail. Clinical performance measures are the measures that the corporations have the
         most experience with, receive most of their attention, and bear most immediately on CMS’
         oversight.

         Our data-gathering methods included two focus groups with the medical directors of the
         five corporations, further interviews with each of the corporate medical directors and



Dialysis: Lessons Learned and Implications for Medicare   3                          OEI-01-99-00054
         other corporate officials, visits to several corporations’ dialysis facilities, and reviews of
         pertinent documents of the corporations.

         It is important to underscore that our inquiry is not an evaluation of the corporations’
         practices. They have been carrying out these practices at their own initiative, not in
         response to any Federal requirements. We did not seek to assess how well they are using
         performance measures, nor did we obtain sufficient information to make such an
         assessment. We did not audit or validate the performance data the corporations collect
         from their facilities. We did seek to gain a clear understanding of their current practices.

         We also interviewed key stakeholders. The stakeholders included the Renal Physicians
         Association, the Forum of End-Stage Renal Disease Networks, and the National Renal
         Administrators Association.

This Report and its Companion Report

         This report is the second of two supplemental reports that we are issuing based on the
         main report entitled, Clinical Performance Measures for Dialysis Facilities: Building on
         the Experiences of the Dialysis Corporations (OEI-01-99-00052). This supplemental
         report begins with two basic lessons associated with establishing a foundation for
         accountability within the dialysis facilities. It then to 12 lessons that concern the
         implementation of clinical performance measures. The report concludes with
         recommendations to CMS as it moves forward to strengthen its own facility-specific data
         collection.

         The first supplemental report, Clinical Performance Measures for Dialysis Facilities:
         Practices of the Major Dialysis Corporations (OEI-01-99-00053), describes the
         corporate practices concerning the use of facility-specific performance measures. We
         address specifics concerning data collection, validation, analysis, dissemination, and
         corporate practices for fostering improvements and intervening with poor performers.

         We conducted this study in accordance with the Quality Standards for Inspections issued
         by the President’s Council on Integrity and Efficiency.




Dialysis: Lessons Learned and Implications for Medicare   4                              OEI-01-99-00054
               LESSONS LEARNED BY THE
                   CORPORATIONS

         Below we present key lessons the dialysis corporations told us they have learned in using
         clinical performance measures to hold facilities accountable for the care they provide. The
         first two address the foundation for accountability that must be established in order for the
         measures to have impact. The remaining lessons are more operational and cover the
         particulars of establishing and using clinical performance measures.


Establishing a Foundation for Accountability

         Performance measures do not
         automatically contribute to improved                  The Role of the Facility Medical Directors and
         dialysis care. For their potential to be                           Attending Physicians
         realized, it is essential that they be used
                                                              Medical Directors. The Medicare Conditions for
         at the local level by individual dialysis            Coverage require each facility to have a physician
         facilities. The facilities’ governing                who serves as a medical director who is responsible
         boards, clinical and technical staff, and            for “planning, organizing, conducting, and directing
         administrators must view the measures                the professional [end-stage renal disease] services.”
         as helpful instruments to improve the                Corporations contract with local physicians to serve
                                                              in this capacity. For facilities that are not part of a
         overall processes of the facility.                   corporate chain, the facility owner and medical
                                                              director can be the same person. In addition to their
         While it is important to gain the                    medical director duties, these physician directors
         commitment of all those who are                      have their own patients that can make up the
         associated with the dialysis facilities, it          majority of patients at a facility. It is not uncommon
         is especially important to ensure that               for a medical director to also be an attending
                                                              physician at another facility regardless of the
         the two parties that have the most                   ownership.
         influence over the processes of dialysis
         treatment—the facility medical                       Attending Physicians. Dialysis facilities allow
         directors and the attending physicians               local physicians to send their patients to them for
         —integrate the measures into their                   treatment. Attending physicians may send patients
         decision-making process (see text box).              to several facilities that may be owned by several
                                                              different corporations or entities. The physicians are
         In the sections that follow, we
                                                              not contractors or employees of the facility or the
         elaborate on what the corporations                   corporation, and their privileges can be revoked if
         have learned in this regard.                         they do not adhere to the facility’s policies.




Dialysis: Lessons Learned and Implications for Medicare   5                                         OEI-01-99-00054
Lesson 1. Look to medical directors to exert sustained leadership.

         The dialysis corporations underscore that if performance measurements are, in fact, to
         stimulate improved care, it is essential that facility medical directors provide leadership.
         They look to their medical directors to exert this leadership in two key ways. One is to
         lead by example. The medical directors must show that they are willing to use
         performance data to improve their own practices, for their own patients. Since the
         medical directors can account for a majority of a facility’s patients, such leadership by
         example is of no small consequence.

         The other dimension of medical director leadership is that of ensuring sustained attention
         in the facility to the improvement opportunities that performance measures can offer. The
         corporations have come to expect the medical directors to serve as the primary on-site
         agents to implement the corporate initiatives concerning the collection and use of
         measures, to help nurses and attending physicians recognize the value of using the
         measures, to determine how measures can foster continuous quality improvement efforts,
         and, where necessary, to intervene with individual physicians or nurses whose
         performance may be adversely effecting the facility’s overall performance.

         The medical directors’ contracts spell out their leadership responsibilities. These contracts
         include the responsibilities required by the Medicare regulations as well as any additional
         responsibilities required by the corporation.9 Among the contracts that we reviewed, we
         saw specifications that medical directors review their facilities’ performance measures
         monthly, attend regular training or meetings concerning quality improvement, and address
         attending physicians not performing adequately. Two of the corporations even include in
         their contracts a provision indicating that a portion of the medical director’s salary is
         contingent on how well their facilities fared on various performance measures.

         To further the leadership of their medical directors, the corporations also convene forums
         of various kinds at which medical directors receive training about the use of performance
         measures and the dynamics of quality improvement efforts. These sessions tend to focus
         on how such efforts can be instrumental in improving the processes of care. The
         corporations also conduct other kinds of outreach to help medical directors. For instance,
         one holds quarterly conference calls in which medical directors and other facility staff are
         encouraged to participate. The corporate leaders we met with believed that these efforts
         are helpful in engaging the medical directors.

         The corporate officials disagreed about how fully they are able to hold facility medical
         directors accountable for exerting leadership. Some stated that they had all the authority
         they needed through their contracts with facility medical directors. For them, it was
         simply having the will to enforce their contracts. Others drew attention to the limited
         leverage that the medical directors themselves have over the attending physicians who,
         unlike medical directors, do not have contractual obligations to the facility or the
         corporation and who often have patients at various facilities.10 The Medicare Conditions


Dialysis: Lessons Learned and Implications for Medicare   6                             OEI-01-99-00054
         for Coverage do not make explicit that medical directors have the authority to take action
         concerning patients attended to by other physicians.11 However, in CMS’ comments to
         this report it stated, “that medical director may take “independent action” (which can
         encompass a number of options) in the absence of explicit statutory or regulatory
         authority.”12 Moreover, in competitive marketplaces, medical directors and attending
         physicians, if unhappy with a facility, can encourage their patients to move with them to
         another dialysis facility.

Lesson 2. Secure the commitment of attending physicians.

         For their own patients, the attending physicians determine the amount of dialysis, prescribe
         medications, and monitor the ongoing effects of dialysis treatment. In performing these
         roles, the attending physicians have a considerable influence on the quality of care
         provided at dialysis facilities and can influence how well particular facilities fare when
         performance measures are aggregated.

         Yet, corporate representatives indicate that these attending physicians, when they are not
         the medical director, are not necessarily drawn to facility-based performance measures.
         With their patients in a number of different facilities, they may find any one facility’s
         measurements to be of little consequence to their own clinical performance. And, finally,
         as busy professionals, they may find that they have little time to devote to improvement
         efforts, for which they receive no additional compensation.

         Still the corporations have devised ways to encourage attending physicians to participate
         in facility efforts to improve the quality of care being provided. One approach they use is
         to establish clear standards that attending physicians must meet in order to send their
         patients to the facility. Typically these standards are set forth in the facility bylaws. At
         least one of the corporations has reinforced its standards by requiring all attending
         physicians to sign an agreement stipulating their roles and responsibilities. Another
         approach is to provide opportunities for physicians to attend seminars or conferences
         addressing performance measures and/or quality improvement. Finally, to foster a
         stronger sense of individual physician accountability, two corporations provide physician-
         specific performance reports so that physicians can see data that are more relevant to their
         own practice.


Implementing Clinical Performance Measures

         The corporations have been collecting and using facility-specific performance measures for
         many years. They have gained a considerable appreciation for the complexities of the
         tasks involved. They have made and continue to make changes in their policies and
         procedures. We offer what they regard as major lessons learned.




Dialysis: Lessons Learned and Implications for Medicare   7                          OEI-01-99-00054
Lesson 3. Collect a broad set of measures.

         Even with all the research on dialysis treatment in the last 25 years, there still is a lack of
         complete understanding of what affects mortality on dialysis patients. Dialysis treatment is
         a complex process. Treatment is also complicated by the fact that many patients suffer
         from other serious chronic conditions, such as hypertension and diabetes. Therefore, it is
         critical that facilities monitor many different measures in order to obtain a better picture of
         the care patients receive.

Lesson 4. Revisit the relevance of the measures regularly.

         The measures the corporations collect have changed over time in order to keep pace with
         scientific advances. The corporations stated that if the measures were outdated (i.e., not
         clinically relevant), then physicians, nurses, and other renal professionals would be
         unwilling to invest their time in collecting and reviewing them.

         The vast majority of revisions have been adding new measures and refining definitions as
         opposed to eliminating measures. With new research coming out all the time and as
         researchers learn more about the process of dialysis treatment, new parameters are
         identified that influence mortality. In order to accomplish this task, the corporations rely
         on staff at the central level who monitor the latest research and can react quickly to revise
         the measures.

Lesson 5. Establish minimum performance standards.

         Corporate officials emphasized that setting clear expectations for facility performance is
         key to ensuring a minimum level of care across all facilities. The corporations recognize
         that some variation will always exist in dialysis care. However, the corporate leaders
         agreed that there is a floor below which care is unacceptable.

         Minimum standards are often expressed as a percentage of patients meeting a certain
         target value rather than the average value for all patients at the facility for a given
         measure. Percentages more clearly indicate the number of patients not receiving adequate
         treatment. If 80 percent of patients are meeting the target value, then 20 percent of
         patients are not. The facility is then able to focus on that 20 percent. With averages it can
         be unclear how many patients are above and below the target and what the variance is
         among patients.

Lesson 6. Develop performance goals.

         Corporate leaders emphasized the need for all facilities, even the top performers, to
         continually improve their performance. In order to prevent facilities from striving just to
         meet the minimum standards, three of the corporations have established goals for each
         performance measure. The goals are intended to be challenging enough to motivate all


Dialysis: Lessons Learned and Implications for Medicare   8                            OEI-01-99-00054
         facilities to improve. One corporate official stated that without goals, the minimums
         become the goals and the race to the bottom begins.

Lesson 7. Apply strict definitions to performance measures.

         Standard definitions and processes need to be in place prior to collecting the data. Many
         of the clinical performance measures are collected as part of regular treatment, but they
         are not necessarily standardized. In order for the data to be used as part of an aggregate
         analysis, all the data need to be collected and analyzed in the same manner. For example,
         to obtain the urea reduction ratio a blood sample needs to be drawn from the patient.
         Depending on when and how the blood is drawn, the result will differ. In order to bring
         attention to this issue, one corporation requires all its staff members to wear a clip-on
         badge similar to an identification badge. The badge spells out the process for collecting
         blood samples for the urea reduction ratio.

         Other measures that corporate leaders have been especially careful to define the type of
         calculations to perform are hospitalization and mortality rates. For example, some
         corporations exclude patients with certain terminal diseases in calculating mortality rates
         and some do not. With hospitalization, some count the length of stay and some just count
         the number of times admitted. All the corporations indicated that it was important to
         make clear exactly what the measure represents so that all facilities can be collecting the
         same type of data.

Lesson 8. Check the accuracy of performance data regularly.

         All the corporations indicated that this process is time consuming and often tedious. But
         without it, they were concerned that the integrity of the data could be compromised.
         Facilities first and foremost are in the business of providing patient care; they are not
         focused on statistics or data entry. Therefore, it is important to have a system in place to
         monitor the data.

         The review process serves two main functions: it helps ensure the accuracy of the data and
         it helps to foster the integrity of the entire performance measure program among
         physicians and facility staff. If care givers perceive that the data lacks integrity, they will
         likely ignore any reports generated from the data.

         Some of the corporations thought that, without review, some facilities might try to
         manipulate the data to make their performance appear to be better than it actually is.
         Other corporations disagreed. However, all the corporations agreed that a review process
         helps foster confidence in the data.

Lesson 9. Minimize the data reporting burden.

         Staff time, as in any health care setting, is in short supply. Nurses and technicians are busy
         caring for patients and have little time left over for other activities, especially for

Dialysis: Lessons Learned and Implications for Medicare   9                            OEI-01-99-00054
         quality improvement activities that sometimes can be perceived as more paperwork. It is
         often the nurses and technicians who are left to deal with quality improvement tasks such
         as entering the data and submitting forms. To help reduce the workload, some of the
         corporations have integrated their electronic data systems for quality management with
         their data systems for patient management that nurses and doctors rely upon to provide
         day-to-day patient care. These types of integrated systems eliminate the need for double
         data entry.

Lesson 10. Present the performance data in ways that facilitate comparative
assessment.

         Corporate performance reports compare a facility to its own past performance and to its
         peers at the regional or national levels. Corporate officials told us that comparisons are a
         big motivator for improvement. They show at-a-glance where one facility stands among
         its peers. The facility can then begin to explore how the care they provide differs from
         their peers.

Lesson 11. Provide timely feedback of performance data to dialysis facilities.

         If the data are 2 years old, or even a year old, physicians may tend to view them as
         something that shows a long-term trend that is irrelevant to the care they are providing
         today. According to corporate leaders, the more recent the data, the more likely
         physicians and staff will take them seriously as a reflection of the care they are providing
         now and if necessary make changes in their practices.

         They also believed that the performance measures can have greater impact if physicians
         are looking at them as part of their care-giving process, not as a task that they save until
         the end of the day after they have seen all their patients. Thus, the data need to be readily
         accessible through patient charts or on computer terminals within the facilities.

Lesson 12. Stress quality improvement projects at the facility level.

         The corporations expect individual dialysis facilities to take the lead in conducting quality
         improvement projects. They look to the facilities to identify problems and to develop and
         implement their own quality improvement projects. Facilities are in the best position to
         identify areas in need of improvement. Furthermore, improvements can only occur if the
         individuals providing the care make changes in their processes.

         The corporations view themselves as assisting their facilities in improvement activities
         rather than conducting the projects themselves. Thus, they provide extensive training,
         technical assistance, and materials to help facilities conduct their own projects. On
         occasion, corporations will conduct corporate-wide projects, but most often the emphasis
         is placed on facility-based projects.



Dialysis: Lessons Learned and Implications for Medicare   10                           OEI-01-99-00054
Lesson 13. Use performance data as a guide to possible performance problems,
not as definitive indicators.

         Corporations use performance measures cautiously, as signals of possible problems. It is
         important that measures are used with other types of information. Prior to intervening,
         the corporations seek to verify the concern. They may examine the results of recent
         patient satisfaction surveys, complaints, results of any State surveys, adverse event
         reports, and the current demographics of the patient population. Some corporations wait
         until a definite pattern appears over several months before they will intervene. Corporate
         representatives emphasized that performance measures used in isolation can lead to false
         conclusions on both sides. A facility that fails to meet performance minimums may in fact
         be providing high quality care. Similarly, a facility exceeding performance goals may be
         providing inadequate care.

         One representative told us about a time that he called a facility medical director to express
         concern about the facility’s high mortality rate. It quickly became apparent the high
         mortality rate was explained by a patient population that included a large number of
         patients suffering from AIDs. The corporation did not adjust its data for AIDs and other
         terminal illnesses. The issue of patient comorbidity can be particularly complex as many
         measures are not adequately risk-adjusted. Another corporate official told us that he was
         surprised when he received a State survey report from one of his facilities that outlined
         several serious deficiencies. The facility was performing well on each of its performance
         measures. From these events and others, the corporations have learned not to rush to
         judgement based on the measures alone.

Lesson 14. Intervene with facilities having performance problems in ways likely
to motivate change.

         When the corporations have determined that a cause for concern exists at a facility, they
         will intervene using graded approaches. The corporations tend to begin their interventions
         with targeted training for the facility. Often facilities struggle because they simply do not
         know how to interpret their data and develop a corrective action plan. Often the training
         occurs on site so that the corporate officials can also review first-hand the practices of the
         facility. Many of the corporate officials believed that training would not only help the
         facility fix its current problem, but also help the facility address any problems in the future.
         If training fails, the next level of response is peer review. Corporate officials indicated to
         us that physicians and nurses are more receptive to advice from their regional peers than
         from a person in an executive position. According to the corporate representatives, these
         approaches are highly successful. It was rare that they had to resort to punitive actions
         such as firing facility staff, terminating contracts with facility medical directors, or
         revoking attending physician privileges.




Dialysis: Lessons Learned and Implications for Medicare   11                            OEI-01-99-00054
                            RECOMMENDATIONS
         CMS has played an important leadership role in developing national clinical indicators to
         assess the quality of care of dialysis patients. Its efforts, through the Clinical Performance
         Measures Project, have drawn attention to the potential of clinical performance measures
         in the dialysis field. The data show that between 1994 and 1999 the percentage of patients
         with adequate dialysis treatment, defined as a urea reduction ratio $65 percent, has
         increased from 43 to 80 percent. The percentage of patients receiving adequate anemia
         management, defined as hemoglobin $ 11 gm/dL, has also increased from 43 to 68 percent
         between 1997 and 1999.13 CMS has also collected facility-specific data on performance
         measures mainly through billing and administrative forms and recently has taken steps to
         strengthen its systems to collect and disseminate facility-specific data (see appendix B and
         page 2).

         The major dialysis corporations, as we have shown, also have been active in using facility-
         specific performance measures as tools of quality improvement. The lessons that they
         have learned in collecting and using clinical performance measures reinforce the directions
         that CMS is taking towards enhancing its current facility-specific reporting mechanisms.
         CMS is developing a new core data set, a mechanism to help ensure accurate reporting, a
         mechanism to provide ongoing evaluations of the measures, and a process to disseminate
         comparative data in a more timely fashion.

         In this final section, we draw on the lessons learned by the dialysis corporations to identify
         the implications that we conclude they have for CMS. As CMS seeks, in the years ahead,
         to further tap into the potential of performance measures as a means of improving health
         care outcomes for dialysis patients, it will need to address these recommendations.

         In presenting these recommendations, we offer two important caveats. One is that we do
         not intend to imply that the facilities that are part of the major dialysis corporations are the
         best or in any way deserve preferential treatment. As CMS continues to exert leadership
         in using clinical performance measures as tools for quality improvement, it must be
         attuned to their application in a full range of dialysis facilities, whether or not they are part
         of a corporate chain. Secondly, we recognize that performance measures are only part of
         the solution to improving care. The Medicare Payment Advisory Commission, and others,
         have noted that the current payment system for dialysis services is fragmented. This
         system inhibits the systematic, coordinated steps that dialysis facilities must take if they are
         to make effective use of performance measures to improve the quality of care. To
         continue to make substantial improvements, the fragmented nature of the payment system
         may need to be addressed so that it creates incentives to provide high quality care.14




Dialysis: Lessons Learned and Implications for Medicare   12                             OEI-01-99-00054
Revise the Medicare Conditions for Coverage for dialysis facilities.

         CMS is now in the process of drafting revisions to the Medicare Conditions for Coverage,
         regulations that all dialysis facilities receiving Medicare payments must adhere to. In our
         June 2000 report, we emphasized that it was important to revise the Conditions so that
         they serve as a more effective foundation for accountability. We cited six specific changes
         that, at a minimum, should be part of the revision.15 Our review of the lessons learned by
         the dialysis corporations adds compelling support for two of the changes we called for.
         We address them below.

Require facility medical directors to exert leadership in quality improvement.

         The corporations have learned that if performance measures are to be used effectively at
         the facility level, someone at the facility must take the lead to ensure that the nurses,
         attending physicians, and the technicians are all attuned to quality improvements. The
         medical director, who typically serves as a member of the facility’s governing body, is in
         the best position to fulfill this leadership role. Without medical directors being fully
         committed to and engaged with quality improvement activities, important opportunities
         for enhancing patient care are likely to be missed.

         Recognition of the significance of medical director leadership is not limited to the major
         dialysis corporations. The Renal Physicians Association has issued a position paper on the
         responsibilities of the medical director that calls for them to ensure that all attending
         physicians comply with Federal requirements.16 One of the End-Stage Renal Disease
         Networks, the TransPacific Renal Network, has adopted a set of standards for facility
         leadership that are modeled on those of the Joint Commission on Accreditation of
         Healthcare Organizations and cite the medical director as the final authority within the
         facility.17 And the Texas Department of Health, with input from the End-Stage Renal
         Disease Network’s medical board and the renal community, issued a set of standards that
         among other things calls for medical directors to attend monthly quality improvement
         meetings.18

         The current Medicare Conditions do not explicitly require the medical director to take the
         lead in quality improvement. It is time for them to catch up with developments such as
         those noted above and to state explicitly that the medical director must play a leadership
         role in using performance measurements to stimulate quality improvements. While the
         Conditions need not spell out that role in great detail, they should make it clear that the
         medical director is expected, on an ongoing basis, to lead quality improvement efforts.

         CMS should also address in the Conditions what medical directors are expected to do
         when a quality problem is attributable to an attending physician who is not performing
         adequately. CMS should make clear that medical directors have the authority to conduct
         and/or initiate peer review and to address performance problems through directed
         education efforts. And, for more serious situations where patients have been put at risk

Dialysis: Lessons Learned and Implications for Medicare   13                         OEI-01-99-00054
         because of poor care medical care, CMS should make clear the medical director’s
         responsibility to report the physician to an authoritative body, such as the facility’s
         governing board, End-Stage Renal Disease Network, and/or the State Medical Board.

Require dialysis facilities to conduct their own quality improvement projects.

         To varying degrees, the corporations conduct regional or national quality improvement
         efforts. But each of them places the primary focus at the facility level. They look to their
         facilities to use performance measurement as a mechanism of constructive change. They
         look to the facilities to compare their performance scores over time and with other
         facilities and to ask: how can we do better? The main role for the regional or central
         corporate offices is to support such facility-based efforts.

         CMS can give added impetus to such facility-based efforts by enacting a Medicare
         requirement that facilities undertake quality improvement efforts.19 The requirement need
         not stipulate the type of efforts, but should call upon the facilities to draw on performance
         measures, as well as, other sources of information to improve the quality of care provided.
         This expectation should apply even for facilities that have comparatively high performance
         scores. All facilities, it seems reasonable to assume, can do better.

         Such a mandate need not preclude national or regional quality improvement projects but
         the corporate experience suggests that they should be of lesser significance than those that
         are facility-specific. It is essential here to recognize that improvement efforts are an add-
         on to ongoing care responsibilities and that it can be difficult to garner sufficient attention
         to them. This is particularly true in the many facilities coping with staff shortages and high
         turnover rates. To the extent that CMS and/or the Networks call for facilities to
         participate in national or regional efforts, the facilities’ readiness and capability to generate
         their own intrinsic efforts may be lessened. This is an important policy consideration that
         warrants attention.


Examine ways to foster the commitment of attending physicians to
performance measures.

         This is a complicated issue, but our review of the corporate experiences suggests that
         without addressing it, the potential of performance measurement will not be fully tapped.
         Attending physicians are the ones who determine the course of treatment, prescribe
         medications, and monitor the overall health of the dialysis patient. For a facility to achieve
         sustained progress in its performance improvement efforts, these physicians must become
         active participants in such efforts. They must see themselves not just as a patient’s
         physician, but as a part of the facility’s team responsible for the patient’s care. And, just
         as the facility must be held accountable for the quality of the care provided, so too must
         the individual physician.


Dialysis: Lessons Learned and Implications for Medicare   14                             OEI-01-99-00054
         The key question is how can CMS best foster such accountability and commitment by the
         attending physician? Our review suggests three directions. One is for CMS and/or the
         Networks to provide educational forums for nephrologists that clearly convey the value of
         performance measures and their relevance to everyday care of the patient. Both CMS and
         the corporations have undertaken such efforts. Perhaps they could collaborate on what
         approaches work best and warrant more attention in the future.

         A second direction is to consider generating physician-specific report cards. One
         Network, as we noted in a prior report, has been doing this since 1997.20 Three times a
         year it generates a Physician Activity Sheet that compares the performance of individual
         physicians to their peers at the facility, State, and Network level and to clinical guidelines
         on several performance measures collected by the Network. Similarly, two of the dialysis
         corporations we contacted provide physician-specific report cards so that physicians can
         see how their performance compares with their peers. It strikes us that such efforts to
         drive down the data to the physician level can be an important way to draw attending
         physicians more fully into improvement efforts and to hold them more fully accountable
         for their performance.

         A third direction is for CMS to more fully address the expectations of attending physicians
         to contribute to and be responsive to quality improvement efforts and, more generally, to
         provide care to their patients. It could be instructive to review the extent and kind of
         expectations now set forth by facilities and what effects they seem to have concerning
         performance improvement. For example, several of the corporations provide standards
         that all attending physicians must meet in their facility bylaws. No such standards now
         exist at the Federal level. CMS may want to consider revising the Conditions for
         Coverage to require facilities to have a credentialing process in place for all attending
         physicians similar to the Medicare standards in place for hospitals.21


Develop more effective intervention strategies for dialysis facilities.

         CMS relies on two separate organizations to oversee dialysis facilities: the End-Stage
         Renal Disease Networks and the State Survey Agencies. Each has its own expertise and
         authorities. The Networks have clinical expertise as they are comprised of local renal
         physicians and nurses, and the States have regulatory authority to enforce Medicare
         regulations.

         Networks, equipped with facility-specific data from CMS, can use the data to guide the
         types of regional quality improvement projects they conduct each year. They should also
         use the data to help focus training and technical assistance with the facilities in need of
         improvements. Similarly, Networks should use the data to identify the top performers in
         order to understand why they are successful and disseminate best practices. Finally,
         Networks can use the data to help conduct more targeted peer review and to identify
         facilities that need to develop formal plans for corrective actions.


Dialysis: Lessons Learned and Implications for Medicare   15                           OEI-01-99-00054
         States can use the facility-specific data they receive from CMS to help identify facilities to
         survey and to ask targeted questions once on site. We recognize that there is concern
         with the States taking the measures too literally and jumping to false conclusions.
         However, it seems reasonable that States should have performance data available to them,
         as one tool among many, that they can use to help inform the survey process.22

         Furthermore, CMS may want to consider expanding the enforcement options available for
         facilities that fail to comply with the Conditions for Coverage. Currently, CMS has very
         few options, short of terminating the facility from the Medicare program, to sanction
         dialysis facilities. CMS affords a wide range of enforcement options for other health care
         facilities. For example, under certain circumstances CMS can deny Medicare payments to
         all new admissions for nursing homes with deficiencies.23 CMS may want to consider a
         similar option for dialysis facilities.

         Even though both these entities complement one another and at times overlap, we found
         in our June 2000 report that the States and the Networks rarely communicate. This
         breakdown can lead to ineffective interventions.24 In order for the States and the
         Networks to be more effective in using performance measures and intervening based on
         them, CMS needs to find ways that they can work together in a coordinated fashion.

         One Network and State already collaborate extensively.25 However this model has not
         been replicated around the country. The two major barriers to greater collaboration are
         liability for Network staff and volunteer members when they conduct work outside their
         CMS contracts and privacy protection laws that prevent Networks from freely sharing
         data with other entities. CMS will need to address these issues first, in order for more
         collaboration to take place between the Networks and the States.


Work with the corporations to share experiences and minimize burden
on dialysis facilities.

         Traditionally, CMS and its agents, the States and the Networks, have not had much
         interaction with the dialysis corporations. Its focus has been on the licensed facilities, not
         the parent corporations. Yet, the parent corporations, like CMS, are also engaged in the
         external quality oversight of dialysis facilities. From different vantage points, the two have
         many of the same concerns. Our review suggests that it could be beneficial for both
         parties, and most importantly for the patients, for more collaboration and sharing to take
         place.

         CMS has taken some efforts to foster collaboration. At a recent CMS-sponsored
         conference for the End-Stage Renal Disease Networks, a presentation entitled
         “Accountability Panel: Corporate Dialysis QI [Quality Improvement] Representatives”
         was held that gave Network and corporate representatives the opportunity to discuss their
         activities.26 Out of this session several practical solutions arose to foster more

Dialysis: Lessons Learned and Implications for Medicare   16                           OEI-01-99-00054
         communication, such as sharing names of regional corporate contact persons and
         providing the corporations with a list of all Network quality improvement projects. CMS
         has also indicated that its new information system for dialysis facilities, the Vital
         Information System for Improvement of Outcomes in Nephrology, will contain software
         that will allow facilities to abstract data from their existing databases to submit to CMS.
         This is especially helpful for facilities owned by dialysis corporations that have their own
         data systems already in place to collect data. The new software will eliminate the need for
         these facilities to enter the data twice. In our interviews, corporate officials also indicated
         that they were open to the possibility of sharing facility-specific data with CMS. In
         addition, CMS has held several stakeholder meetings to solicit input from the larger renal
         community that included corporate representatives.

         We encourage CMS to continue to broaden its interactions with the dialysis corporations
         especially by encouraging more of the type of dialogue described above at the recent
         CMS-sponsored conference. It may want to consider sponsoring more meetings that
         include dialysis corporations, Network representatives, government officials, and State
         surveyors. The meetings could focus on practical solutions to foster greater collaboration
         among all these parties. Another concrete step that CMS should take is to share all its
         facility-specific data reports directly with the relevant corporations.




Dialysis: Lessons Learned and Implications for Medicare   17                            OEI-01-99-00054
                                             COMMENTS

         We received written comments on the draft report from CMS, Forum of End-Stage Renal
         Disease Networks (Forum), Renal Physicians Association, National Renal Administrators
         Association, and the five corporate dialysis providers that were the focus of our inquiry:
         Renal Care Group, Fresenius Medical Care, Davita, Gambro Healthcare, and Dialysis
         Clinic, Inc. Their comments were strongly supportive of the lessons we presented and of
         the thrust of the recommendations we made. We include the full text of the comments in
         appendix C. On the basis of the comments, we made a number of clarifications and
         technical changes. Below we summarize and respond to some of the points made
         concerning key issues in our reports.

Medical Director Leadership

         CMS expressed support for our recommendation that the Medicare Conditions be revised
         to require facility medical directors to exert leadership in quality improvement. It
         indicated that it will consider how the Conditions might express such a requirement.
         Other respondents also expressed support, but some raised concerns about how leadership
         might be defined and how it might relate to real world situations. We recognize the
         dangers of defining leadership in too detailed a fashion. But our inquiry and the responses
         we received to the draft reports reinforce the importance of firmly establishing the medical
         director’s leadership responsibility and authority concerning quality improvement activities
         in a facility. CMS should seek feedback from key stakeholders on how this leadership role
         can best be expressed in the revised Medicare Conditions.

         CMS and others supported our recommendation that medical directors be given explicit
         authority to initiate or conduct peer review of attending physicians who are found to be
         performing inadequately and to address performance problems through directed education
         efforts. However, in the case of situations where patients have been put at risk because of
         poor medical care, CMS and others expressed reservations about our recommendation
         that CMS should make clear the medical director’s responsibility to report the physician to
         an authoritative body, such as the facility’s governing board, the End-Stage Renal Disease
         Network, and/or the State Medical Board.

         We are disappointed by the lack of support for this recommendation. We clarify here that
         we are referring to serious situations where the poor performance of a physician has
         clearly put a patient or patients at risk. Physicians, as part of their own State licensure, are
         already obligated to make such referrals to State medical boards. CMS, in its contract
         with the Networks, calls upon them to refer such cases to the Medicare Peer Review
         Organization, the State medical board, or the Office of Inspector General.27 It would
         seem to follow for CMS to reinforce this reporting responsibility for medical directors in
         its Medicare Conditions.


Dialysis: Lessons Learned and Implications for Medicare   18                            OEI-01-99-00054
Quality Improvement Projects

         Our recommendation here drew attention to the value of facility-specific quality
         improvement projects, without necessarily precluding national or regional projects. The
         CMS indicated that it will consider including a requirement for such facility-specific
         projects in the revised Medicare Conditions. One of the corporate providers reinforced
         the point that sound quality improvement projects can be initiated centrally (by a
         corporation or by CMS) as well as by a facility itself. Another provider expressed concern
         that by adding quality improvement projects to a State survey agency’s checklist could
         undercut the intent by emphasizing process over results. It suggested that such projects
         only be required “as part of a corrective action plan relating to substandard clinical
         outcomes.”

         We recognize there is value in both centrally-driven and facility-driven quality
         improvement projects. We also recognize the danger that a Medicare requirement for
         facility specific projects (as exists for example for hospitals) could emphasize process at
         the expense of substance and could, if enforced too rigidly, be a burden for smaller
         facilities. We would urge that CMS reflect an awareness of these dangers in the
         Conditions and in its enforcement of them. However, we continue to believe that the
         quality improvement projects have relevance for all facilities, not just those showing
         substandard clinical outcomes. The latter approach would tend to characterize such
         projects as part of a compliance regime more than an improvement vehicle relevant to all
         facilities.

Securing the Commitment of Attending Physicians to Performance Measures

         The importance of achieving the commitment of attending physicians and the difficulties
         experienced in obtaining it were recurrent themes that surfaced during our inquiry. We
         addressed the issue in our recommendations section by calling for CMS to pursue three
         directions. The first was to provide educational forums for nephrologists that convey the
         value of performance measures and their relevance to the everyday care of the patient.
         CMS and others who commented on this recommendation indicated support for such
         forums.

         The second direction we called for was to generate physician-specific report cards, as is
         already being done by at least one End-Stage Renal Disease Network and two of the
         dialysis corporations we reviewed. CMS indicated that its information system can not
         provide physician-specific data at this time, but that it will consider this recommendation
         as it further develops its system. Other respondents were more clearly concerned about
         this direction, noting concerns about methodological, legal, financial and other problems.
         We recognize the difficulties that can be associated with such reports cards. But there is
         real-world experience that can be drawn upon in developing and using them. And, within
         the context that measures are indicators, not outright indicators of good or bad
         performance, it would seem that physician-specific reports can play a valuable role in
         ensuring attending physicians become more fully engaged in improvement efforts.


Dialysis: Lessons Learned and Implications for Medicare   19                          OEI-01-99-00054
         Finally, the third direction we noted is the most sensitive of the three. Here we suggested
         not only a credentialing process for attending physicians but a consideration of more
         explicit standards for the care provided by attending physicians. With the Medicare
         payment to attending physicians, what standards of care are they expected to provide?
         CMS indicated it would consider our credentialing suggestion. Others expressed concern.
         Our aim here is to foster attention to the expectations that CMS ought to have of
         attending physicians and to how these expectations might be expressed and enforced. We
         believe this is an important area warranting further attention by CMS, the medical
         community, and others.

Intervention Strategies

         CMS supported our recommendation that it examine ways in which the Networks and
         State survey agencies can work together more effectively in overseeing dialysis facilities.
         Others also expressed support. With respect to our suggestion that CMS consider
         expanding the enforcement options available to it, CMS noted it statutory limitations and
         that it is currently developing generic alternative sanctions for all types of providers. The
         need for having a broader array of sanction options is one that has come up previously in
         our review of the dialysis facilities and that we believe warrants further attention by CMS.




Dialysis: Lessons Learned and Implications for Medicare   20                          OEI-01-99-00054
                                                                                APPENDIX C



                                                          Comments

          In this appendix, we present the full comments of all parties that responded to our draft
          report. In order, the comments are from the following parties:

            < Centers for Medicare & Medicaid

            < Davita

            < Dialysis Clinic Inc.

            < Fresenius Medical Care North America

            < Gambro Healthcare

            < Renal Care Group

            < Forum of the End-Stage Renal Disease Networks

            < Renal Physicians Association

            < National Renal Administrators Association




Dialysis: Lessons Learned and Implications for Medicare      25                       OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   26      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   27      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   28      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   29      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   30      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   31      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   32      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   33      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   34      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   35      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   36      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   37      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   38      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   39      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   40      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   41      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   42      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   43      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   44      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   45      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   46      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   47      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   48      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   49      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   50      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   51      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   52      OEI-01-99-00054
                                                               APPENDIX C




Dialysis: Lessons Learned and Implications for Medicare   53      OEI-01-99-00054
